U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                PUBLIC
               RELEASE


                     INTERNATIONAL TRADE
                          ADMINISTRATION

                               US&FCS Japan
          Should be Restructured to Better Meet
                    the Needs of U.S. Exporters

          Audit Report No. IAD-10218-8-0001 / September 1998




           Office of Audits, Business and Trade Audits Division
U.S. Department of Commerce                                                                                          Final Report
Office of Inspector General                                                                                       September 1998


                                            TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE OF AUDIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
    JAPANESE MARKET . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
    US&FCS JAPAN . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          I.        GENERAL MANAGEMENT AND ORGANIZATION . . . . . . . . . . . . . . . . . . . 6
                    A.   US&FCS Japan’s Staffing Allocation and Distribution
                         Should Be Reassessed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
                    B.   Organizational Structure and Work Environment Have Problems . . . . . . 7

                              Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

          II.       PROGRAM ACTIVITIES AND PERFORMANCE MEASUREMENT . . . . . .                                                  10
                    A.   Significant Progress in Trade Policy Has Been Achieved but
                         Trade Promotion Needs Greater Emphasis . . . . . . . . . . . . . . . . . . . . . .                     10
                    B.   Post Contracts Out Some of Its Core Products and Focuses Too Much
                         on Old-to-Market Local-Country Firms . . . . . . . . . . . . . . . . . . . . . . . .                   11
                    C.   Effectiveness of the U.S. Trade Center in Tokyo Is Questionable . . . . .                              12
                    D.   Trade Center Cost Recovery Is Based on Subsidy from
                         the Japanese Government . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          12
                    E    Performance Measurements Should Be Tracked More Accurately . . . . .                                   14

                              Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

          III.      INTERNAL CONTROL ENVIRONMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                    A.   Post Administrative Structure Needs Realigning . . . . . . . . . . . . . . . . . . 18
                    B.   Management Controls Need to Be Strengthened . . . . . . . . . . . . . . . . . . 21

                              Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
U.S. Department of Commerce                                                            Final Report
Office of Inspector General                                                         September 1998

APPENDIX I:             US&FCS Japan Organizational Chart

APPENDIX II:            Administrative Structural Chart

APPENDIX III:           Acronyms

APPENDIX IV:            International Trade Administration’s Response to Draft Report
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                           September 1998

                                  EXECUTIVE SUMMARY

The explosive growth in the Asia-Pacific region has created significant business opportunities for
U.S. companies. The United States stands to gain from these opportunities by increasing exports
to the region. Japan, with a 1995 Gross Domestic Product of $5 trillion, is the United States’
largest overseas trading partner. Although its economic growth has been slower than that of
some other Asian countries, Japan represents 75 percent of the entire Asian economy.
Consequently, the U.S. and Foreign Commercial Service (US&FCS) has dedicated more
resources to Japan than to any other nation.

The United States has long viewed Japan as an important, yet challenging market. In the 1980s,
the United States placed great emphasis on opening up the Japanese market as a way of both
balancing the trade deficit and giving U.S. companies the opportunity to compete fairly in Japan.
Besides the important work that it does for the Department of Commerce, US&FCS Japan played
an important role in this effort by assisting many government agencies, such as the Office of the
United States Trade Representative, Department of the Treasury, and Department of State, in
trade negotiations and trade policy formulation. As a result, US&FCS Japan tended to focus on
policy at the expense of assisting individual U.S. exporters.

More recently, the United States has continued its efforts to gain access to the Japanese market
but has also placed greater emphasis on increasing exports through trade promotion activities.
US&FCS is responsible for carrying out these trade promotion activities, as mandated by the
Omnibus Trade and Competitiveness Act of 1988.

The Office of Inspector General conducted a performance audit of US&FCS operations in Japan,
conducting its fieldwork during September 1-12, 1997. Our audit focused on the general
management and organization of US&FCS’s operations throughout Japan, the effectiveness of
US&FCS’s program activities in serving the needs of U.S. exporters, and the integrity of the
overall internal control environment.

We found that US&FCS Japan is staffed with capable, dedicated, and knowledgeable foreign
service officers and foreign service nationals who have contributed greatly to the Department’s
progress in the Japanese market. During the six years preceding our audit, US&FCS Japan has
done an exemplary job in the areas of deregulation, market access, major projects, government
procurement, and advocacy under the direction of the post’s senior management team and the
Deputy Assistant Secretary for the Office of Japan. The Deputy Assistant Secretary has taken the
lead in directing the Department’s priorities and initiatives for opening this market, which
continues to be closed in many respects. Despite these accomplishments, our audit identified a
series of issues that warrant management’s attention.




                                                -i-
U.S. Department of Commerce                                                               Final Report
Office of Inspector General                                                            September 1998

General Management and Organization

Improvements are needed in US&FCS Japan’s management and organizational environment.
Current resource allocation, the heavy concentration of staff in Tokyo, and the personnel
structure appear to reflect the Department’s priorities of years ago, when the United States
focused extensively on gaining market share in a relatively closed market. We believe that
US&FCS should consider reducing resources in Tokyo and Osaka and increasing them in
Sapporo, Fukuoka and Nagoya to more fully take advantage of the exporting opportunities. (See
page 6.)

Program Activities and Performance Measurement

In the six years preceding our audit, the post made considerable progress on the policy front at the
direction of senior management and the Deputy Assistant Secretary for the Office of Japan.
US&FCS Japan brought down trade barriers and opened markets through its advocacy efforts.
The post also had success in deregulation, government procurement, and with major projects such
as the Osaka airport project, vitamin industry changes, and the enormous housing market in
Japan. However, trade promotion responsibilities have suffered. The post has reduced its contact
with some sections of the business community, particularly small and medium-size exporters, by
contracting out some of its core products and services to allow it to focus on policy initiatives.
(See page 10.)

We believe that US&FCS Japan needs to be reoriented to better serve U.S. businesses. Core
products and services need to be reintroduced so that staff will maintain close contact with the
U.S. business community. The post should also change its focus from old-to-market and local-
country firms to new-to-market and new-to-export firms. (See page 11.)

As discussed in the General Management and Organizational Issues section of this report,
management needs to develop a Strategic Commercial Plan that includes a countrywide marketing
plan. Utilization of the Tokyo Trade Center should be incorporated into this plan. If the Center
is not incorporated, management should assess the cost benefit of operating the Center and
whether the subsidy from the Government of Japan has the potential to influence trade event
activity. (See page 12.)

Internal Control Environment

After reviewing the administrative and financial operations at post and conducting interviews with
US&FCS and embassy staff, we concluded that US&FCS Japan’s internal controls should be
improved. Specifically, we observed significant redundancies (see page 18) within the
administrative units and a lack of coordinated oversight by management. Additionally, there is
not an effective internal control structure to separate critical administrative functions (see page

                                                -ii-
U.S. Department of Commerce                                                               Final Report
Office of Inspector General                                                            September 1998

19). Account balances were also not fully reconcilable between the ITA, State Department, and
Treasury Department records (see page 21). Moreover, in a matter affecting reporting
requirements under the Chief Financial Officers Act, US&FCS Japan had accumulated over $2.3
million in unfunded personnel benefit liability for its employees. (See page 27).

Recommendations for addressing our concerns appear at the end of each report section, on pages
9, 16, and 28-29.

                                              *****

In its response to our draft report, ITA did not expressly disagree with any of the report findings
or recommendations. However, the agency response did question several conclusions and some
of the data in the report. Most specifically, the response questions whether the audit team
requested, obtained, or reviewed all of the pertinent documentation regarding the report findings.

In fact, the team interviewed all US&FCS Japan personnel and reviewed all available
documentation with respect to the matters discussed in this report. Where ITA made a comment
directly related to a specific finding or recommendation, we have inserted the response and the
OIG analysis of the response in the body of the report. In all cases, we quoted ITA’s response
verbatim.




                                                -iii-
U.S. Department of Commerce                                                               Final Report
Office of Inspector General                                                            September 1998


                                      INTRODUCTION

Under the authority of the Inspector General Act of 1978, as amended, and the requirements of
the Omnibus Trade and Competitiveness Act of 1988 and the Export Enhancement Act of 1992,
the Office of Inspector General conducted a performance audit of the U.S. and Foreign
Commercial Service (US&FCS) operations in Japan. We conducted our fieldwork during
September 1-12, 1997.

Performance audits are objective, systematic examinations of evidence conducted to provide an
independent assessment of an organization, program, activity, or function as a basis to improve
accountability and facilitate decision-making by parties with responsibility to oversee or initiate
corrective action. By identifying systemic strengths and weaknesses, the OIG will help the
Department’s managers, in this case the International Trade Administration (ITA) and US&FCS,
implement more efficient and effective operations to better serve the Department’s customers.

ITA, the parent organization of US&FCS, directs a variety of programs and activities designed to
increase U.S. exports. In addition to its headquarters operations, ITA maintains a worldwide
network of offices throughout the United States and in 75 foreign countries.

The goal of the domestic network is to deliver export counseling along with a variety of products
and services that help U.S. companies increase international sales. In the United States, US&FCS
operates 97 domestic offices, including 19 regional export assistance centers that offer services
from export marketing counseling to trade finance assistance. The regional centers are a result of
a cooperative effort among US&FCS, the Small Business Administration, and the Export-Import
Bank. The other domestic offices are primarily staffed by US&FCS personnel.

Overseas, the foreign commercial offices are expected to perform activities that are directed at
improving the trade position of the United States. Among other things, these offices identify
trade and investment opportunities, identify potential distributors and agents, provide business
counseling to U.S. companies, implement trade agreement practices and regulations, and develop
information products for distribution to U.S. companies.

We discussed our observations with the U.S. Embassy’s Chargé d’ Affaires and held an exit
conference with the Senior Commercial Officer (SCO) and the Deputy Assistant Secretary for
International Operations on September 11, 1997. During this conference, the SCO generally
agreed with our findings and recommendations. Subsequently, we also held discussions with
cognizant US&FCS officials and personnel at US&FCS headquarters in Washington, D.C.




                                                -1-
U.S. Department of Commerce                                                                               Final Report
Office of Inspector General                                                                            September 1998


                               PURPOSE AND SCOPE OF AUDIT

The OIG is committed to the pursuit of operational effectiveness throughout the Department,
challenging management to achieve excellence with respect to programmatic, administrative, and
financial operations. The purpose of this performance audit was to evaluate the effectiveness of
the Department’s operations in Japan, which are carried out primarily through US&FCS.1

In accordance with General Accounting Office’s Standards for Internal Controls in the Federal
Government, we reviewed the agency’s internal control environment relating to administrative and
financial management. Our assessment indicates that controls are not properly designed and
implemented; therefore, we could not rely on them in designing our audit approach. However, we
conducted more extensive testing to achieve our objective of determining the effectiveness of
administrative and financial management controls.

We tested US&FCS Japan’s operations for compliance with GAO Title II and the Federal
Manager’s Financial Integrity Act requirements. In order to achieve our audit objectives, we
relied extensively on computer-generated data contained in the State Department Financial
Management System, ITA’s accounting system, and the Treasury Department’s accounting
system. The report findings and recommendations draw upon significant tests of records; physical
evidence; documentary evidence, including accounting records and memorandums; and analytical
evidence based on the data obtained. As appropriate, we also conducted interviews with
Department personnel, clients, and representatives of other organizations involved in trade
promotion. The audit involved an extensive review of programmatic, management,
administrative, and financial issues.

We reviewed the policies, procedures, and practices being implemented by US&FCS Japan to
determine if it is effectively and efficiently meeting its mission: to assist U.S. companies,
particularly small and medium-size enterprises, with export assistance. We also sought to
determine whether US&FCS Japan’s goals and objectives are being achieved, and are in line with
agency objectives. In addition, we evaluated the effectiveness and efficiency of operations and
assessed their compliance with applicable laws, regulations, and procedures.

In conducting our audit, we placed primary emphasis on the following areas:

         l        General Management and Organizational Issues.
         l        Program Activities and Performance Measurement.
         l        Internal Control Environment and Processes.



         1
         The OIG discloses that audit team members formerly worked for ITA; however, they had no material involvement
with US&FCS Japan operations.

                                                         -2-
U.S. Department of Commerce                                                                 Final Report
Office of Inspector General                                                              September 1998

In addition, the audit examined relevant ITA’s headquarters and domestic office activities that
involve or are coordinated with US&FCS Japan.

The audit was conducted in accordance with generally accepted government auditing standards
and was performed under the authority of the Inspector General Act of 1978, as amended, and
Department of Commerce Organization Order 10-13, dated May 22, 1980, as amended.

                                        BACKGROUND

JAPANESE MARKET

The explosive growth in the Asian-Pacific economies has been sustained through unilateral trade
and investment liberalization within the region as a whole. U.S. companies stand to gain from
stable and growing economic engagement in the region. Japan, the United States’ largest
overseas trading partner, is the world's second largest economy with a 1995 Gross Domestic
Product of $5 trillion, roughly 70 percent of the U.S. GDP for the same year. Japan's economy is
larger than the combined economies of Germany, France, and the United Kingdom; 10 times the
size of China’s; and 17 times the size of India’s. Japan represents 75 percent of the entire Asian
economy.

Having expressed a public commitment to economic deregulation, the Japanese government has
taken some steps toward loosening restrictions in certain industries, including energy,
transportation, real estate, finance, retail, health care, and transportation. While these steps have
helped increase opportunities for U.S. firms, there is wide recognition that more comprehensive
deregulation is needed to ensure economic expansion and market access over the long term.

In July 1993, President Clinton and then Prime Minister Miyazawa signed the U.S.-Japan
Framework for a New Partnership, a new vehicle for addressing the many barriers that foreign
companies face when doing business in Japan. Under the framework, Japan is especially
committed to address major barriers in five sectoral and structural areas:

        l       Government procurement.
        l       Regulatory reform and competitiveness.
        l       Economic harmonization.
        l       Other major sectors.
        l       Implementation of existing arrangements and measures.

In addition, Japan agreed to make adjustments to the fundamental economic asymmetries that
have affected its international economic relations, such as reducing its current account surplus as a
percentage of its Gross National Product. Since 1992, in the areas covered by the framework,
U.S. exports have grown by more than 80 percent. The combination of stable economic growth

                                                 -3-
U.S. Department of Commerce                                                                                      Final Report
Office of Inspector General                                                                                   September 1998

and liberalization has made the Japanese market much more competitive and dynamic than in the
past. At the consumer level, imports and foreign brands produced in Japan are increasingly
popular. Foreign investment in consumer goods and services industries has also increased
significantly. As a result, Japanese consumers now enjoy a larger selection of imported products
than they did before. However, it has proven more difficult to increase the foreign share of
Japan’s non-consumer market. To stimulate more competition in that market, vigorous antitrust
enforcement, standards harmonization, bidding procedure transparency, and further deregulation
are needed.

US&FCS JAPAN

Largely because of the significant long-range opportunities for U.S. exports to the Japanese
market, Japan ranks first on the US&FCS Overseas Resource Allocation Matrix, a US&FCS
management tool to help guide overseas resource allocation decision-making.

US&FCS dedicates significant resources, both personnel and financial, to its operations in Japan.
US&FCS Japan employs 60 people at offices in five cities: Tokyo, Osaka, Nagoya, Fukuoka, and
Sapporo. The $8.4 million operating funds come from five sources: the operating and
administrative (O&A) budget, the International Cooperative Administrative Support Services
funding for financial and administrative services, a subsidy from the Japanese government, the
National Oceanic and Atmospheric Administration (NOAA), and Kerry funds provided by the
Congress to facilitate American business access to the Japanese market and to increase exports.2
The FY 1997 O&A budget of $5.4 million consumes approximately six percent of US&FCS’s
total overseas budget.
                                    FY 1997 Operating Funds for US&FCS Japan
                                                     Total $8,457,876




                                             O&A            ICASS           GOJ Subsidy
                                             NOAA           Kerry Funds


                               O&A                                                        $5,378,150
                               ICASS                                                       1,899,264
                               GOJ Subsidy                                                   829,562
                               NOAA                                                          179,900
                               Kerry Funds                                                   171,000



         2
           Note: NOAA and US&FCS signed a reimbursable agreement to hire an FSN to handle National Marine Fisheries
Service issues in Japan. NOAA reimburses US&FCS for the cost of the FSN, travel, and procurements. Kerry fund data is
estimated based on personal services contract and annual expenditures; the post does not track Kerry funds by fiscal year.
Please see page 24 for additional information on Kerry funds.

                                                             -4-
U.S. Department of Commerce                                                                               Final Report
Office of Inspector General                                                                            September 1998

US&FCS Japan operates in two facilities in Tokyo: the U.S. Embassy and the U.S. Trade Center.
The Embassy location is the focal point for the country’s commercial operations. US&FCS Japan
houses 46 of its 60 personnel in the Embassy, including 12 of its 15 foreign commercial officers
(FCOs). The SCO and the Commercial Counselor have their offices in the Embassy, as do 10
other officers who are organized largely by industry sectors. This is the largest concentration of
FCOs at any site in the world.

The U.S. Trade Center, located in Ikebukuro, a suburb of Tokyo, is available for U.S. companies
to use for trade and product promotion, technical seminars, training programs, and hospitality
events. In addition, US&FCS holds from 10 to 12 trade events annually at the Center. The
Center’s director (whose primary office is in the Embassy) and three local hires3 operate the
Center.

To address market opportunities throughout the rest of the country, there are US&FCS-managed
commercial offices in Osaka and Nagoya, and State Department-managed offices in Fukuoka and
Sapporo. The staff of the Osaka office, which addresses commercial operations in a region of
Japan that has a GNP equaling that of Germany, consists of two FCOs and seven local hires. The
Nagoya office, established in 1993 to fill the expanding markets between Osaka and Tokyo, is
managed by one FCO with support from two local hires. The Sapporo and Fukuoka offices each
have one local hire.




        3
         Local hires include either foreign service national or personal service contract employees.

                                                            -5-
U.S. Department of Commerce                                                                                   Final Report
Office of Inspector General                                                                                September 1998

                                FINDINGS AND RECOMMENDATIONS

We have categorized our audit findings and recommendations into three broad areas:

        l             General Management and Organizational Issues.
        l             Program Activities and Performance Measurement.
        l             Internal Control Environment.

While we found strengths in some areas, we identified weaknesses in all three areas, many of
which we consider serious. For instance, in the six years preceding our audit, the post made
considerable progress on the policy front by bringing down trade barriers, opening markets, and
succeeding in major projects. However, the successes achieved in trade policy and market access
issues have detracted from the trade promotion mission of US&FCS.

I.      GENERAL MANAGEMENT AND ORGANIZATION

        A.            US&FCS Japan’s Staffing Allocation and Distribution Should Be Reassessed

Improvements are needed in US&FCS Japan’s management and organizational environment. In
our view, the post’s clients and other U.S. exporters are not being provided with the maximum
available market opportunities because US&FCS Japan is not functioning as efficiently and
effectively as it could. Resource allocation and the personnel structure appears to reflect the
Department’s priorities of years ago, when the United States primarily focused on gaining market
share in a relatively closed market. As of September 1997, the 15 FCOs in Japan represented 7.1
percent of the US&FCS officer positions overseas. The 60 staff in Japan represent about five
percent of the US&FCS worldwide full-time equivalents (FTE). The table below identifies the
number of staff in each location within Japan:

                               LOCATION                       FCOs                 LOCAL HIRES     TOTAL

                        Tokyo- Embassy                          114                           31    42

                        Tokyo- Trade Center                      1                            3      4

                        Osaka                                    2                            7      9

                        Nagoya                                   1                            2      3

                        Fukuoka                                  0                            1      1

                        Sapporo                                  0                            1      1

                        TOTAL                                    15                           45    60


        4
            Of the 12 positions, one is designated as a secretary/administrative assistant.


                                                                          -6-
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                          September 1998

As shown in the table, Tokyo and Osaka have large staffs in comparison to the other locations.
Under this arrangement, resources are not being used effectively (i.e., some FSNs do not have
enough work). In Tokyo, for example, duties have been shifted from the secretary to a newly
appointed FCO because there was not enough work for the incoming officer. Also, the high
resource allocation to Tokyo and Osaka has allowed individuals to work on policy issues
supporting the Ambassador, the Office of the United States Trade Representative, and ITA’s
Office of Japan rather than on promotion activities.

By contrast, personnel interviewed at Nagoya, Fukuoka, and Sapporo state that these offices lack
sufficient resources to pursue all opportunities for U.S. exports. As a result, some opportunities
for American firms and U.S. exports are forgone. We believe that Nagoya, Fukuoka, and
Sapporo could better serve the needs of their clients if some of the resources supporting policy
issues in Tokyo and Osaka were shifted to promotion activities at these three sites.

B.      Organizational Structure and Work Environment Have Problems

We believe that the organizational structure of US&FCS Japan needs reassessment and the
general management environment needs strengthening. This problem has been exacerbated in the
past by a lack of direction from US&FCS Washington and a lack of coordination and
communication with ITA’s Trade Development unit and US&FCS domestic offices. One
example of poor coordination and communication that we witnessed first-hand was the Tokyo
International Gift Trade Show we visited while in Tokyo. At this show, ITA had three separate
exhibit booths promoting U.S. firms. Adjacent booths representing the California US&FCS
domestic offices, ITA’s Trade Development consumer goods unit, and the US&FCS Japan
Embassy operation were promoting products for various U.S. companies. Prior to the trade
show, reportedly, there was not an effort among the three organizations to unify and coordinate
their promotion activities. Such coordination would have resulted in a cost savings to the
Department and more effective promotion for U.S. firms.

Organizational structure should be reevaluated

The large number of Foreign Commercial Officers (FCOs) in Japan compared to other US&FCS
posts is attributable to the priorities of the Department during the late 1980s, before
implementation of the current Big Emerging Market strategy. Moreover, because both Tokyo
and Osaka are structured by industry units, the FSNs have become industry specialists rather than
generalists, and US&FCS has become heavily dependent on FSNs for their industry contacts. The
FCOs who manage the FSNs, in essence, have become “specialists managing specialists,” a
situation that can hinder career enhancement opportunities. Management has tried to
accommodate the more general needs of the FCOs by rotating units and industries, but according
to FSNs and clients, it is very time consuming to bring an FCO up to speed with an industry. We
believe this organizational arrangement should be reevaluated.

                                                 -7-
U.S. Department of Commerce                                                                                    Final Report
Office of Inspector General                                                                                 September 1998

US&FCS management has provided insufficient direction

US&FCS Japan has the most resources of any US&FCS operation worldwide, but according to
local staff, the post does not receive adequate leadership or guidance from Washington. In fact,
the local staff believe that US&FCS Japan has been largely neglected by US&FCS headquarters
during the Big Emerging Market and Showcase Europe focus. Not being a part of either
initiative, US&FCS Japan has increased its interaction with organizations outside US&FCS. For
example, the Office of Japan, under the direction of ITA’s Market Access and Compliance unit,5
has contributed to successes in the policy arena, but at the expense of trade promotion activities.

Communication and direction from Tokyo to constituent posts should be improved

During our audit, we noted that constituent posts outside Tokyo have tended to operate
independently. However, we believe the new SCO has the opportunity to take a more active role
in the activities of the constituent posts, thereby linking them more closely with the overall
mission. As part of this, management should develop a new countrywide outreach plan that
identifies specific goals and milestones for each post and industry sector in the Strategic
Commercial Plan. The plan should be the basis for defining the program’s annual goals and
measuring its performance. We found the current plan too general and lacking the specific
milestones for posts and industry sectors that other plans have.

                                                          *****

Summarized ITA Response to Draft Report

In responding to our draft report, ITA said:

1. US&FCS believes that increasing exports to Japan is an important way to mitigate
destabilizing influences on world trade. US&FCS is currently reviewing staffing levels at all of its
overseas posts and will consider the issues presented in the draft OIG report. US&FCS will also
examine whether officers and local hires could be used more effectively in all of its overseas posts.

2. ITA asserts that many US&FCS posts report uneven support from Trade Development and
US&FCS domestic offices and would like additional information to help assess this matter.




         5
           There are four units within ITA: US&FCS, Market Access and Compliance, Trade Development, and Import
Administration. Market Access and Compliance is primarily responsible for providing trade policy support for the Department.

                                                            -8-
U.S. Department of Commerce                                                               Final Report
Office of Inspector General                                                            September 1998

OIG Analysis of ITA’s Response

1. The OIG is encouraged that US&FCS is reassessing its worldwide resource allocation of
personnel. In its assessment, US&FCS should consider the heavy concentration of personnel in
Tokyo, as well as the total personnel dedicated to US&FCS Japan operations.

2. The OIG found that most of the management direction and guidance over the last several years
has flowed from ITA’s Office of Japan, within Market Access and Compliance. The MAC
direction focused the efforts of post management on policy development, not trade promotion.
Additionally, US&FCS Japan and the domestic US&FCS offices have not regularly referred client
to one another. While ITA asserts that US&FCS posts report uneven support and coordination,
the OIG has several examples, one of which pertaining to a trade show visited by the audit team
(page 7), that indicates a lack of program coordination throughout ITA.

Recommendations

We recommend that the Assistant Secretary and Director General of US&FCS:

1.      Reassess the allocation of resources to US&FCS Japan’s five offices, giving special
        attention to the merits of reducing resources in Tokyo and Osaka and increasing them in
        Sapporo, Fukuoka, and Nagoya.

2.      Realign the organizational structure of US&FCS Japan to improve communication and
        overall operations.

3.      Develop a countrywide strategic plan that incorporates the functions and activities of all
        five locations and focuses on trade promotion activities. The plan should identify
        milestones for each office and industry and should also serve as a benchmark to measure
        the post’s performance.




                                                -9-
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                           September 1998

II.     PROGRAM ACTIVITIES AND PERFORMANCE MEASUREMENT

Clearly, the program activities of US&FCS Japan have been successful in certain areas, but
lacking in others. In the six years preceding our audit, the post made considerable progress on the
policy front at the direction of senior management and the Deputy Assistant Secretary for the
Office of Japan. US&FCS Japan brought down trade barriers and opened markets through its
advocacy efforts. The post also had success in deregulation, government procurement, and with
major projects such as the Osaka airport project, vitamin industry changes, and with the enormous
housing market in Japan. However, trade promotion responsibilities have suffered. The post has
reduced its contact with some sections of the business community, particularly small and medium-
size exporters, by contracting out some of its core products and focusing on policy initiatives.

We believe that US&FCS Japan needs to be reoriented to better serve U.S. businesses. Core
products and services need to be reintroduced so that staff will maintain close contact with the
U.S. business community. The post should also change its focus from old-to-market (OTM) and
local-country firms to new-to-market (NTM) and new-to-export (NTE) firms.

As discussed in the General Management and Organization section of this report, management
needs to develop a Strategic Commercial Plan that includes a countrywide marketing plan.
Utilization of the Tokyo Trade Center should be incorporated into this plan. If the Center is not
incorporated, management should assess the cost benefit of operating the Center and whether the
subsidy from the government of Japan is influencing trade event activity. Management must also
track its performance as required under the Government Performance and Results Act of 1993.

A.      Significant Progress in Trade Policy Has Been Achieved but Trade Promotion Needs
        Greater Emphasis

In the 1980s, the United States attempted to reduce its large trade deficit with Japan through
negotiated agreements centered on market access. As a result, many government agencies relied
on US&FCS Japan for industry expertise, policy formulation, assistance in trade negotiations,
monitoring of trade agreements, and information gathering. The post became accustomed to
serving the needs of United States Trade Representative and ITA’s Office of Japan. This focus
continues today. The Office of Japan and, to a lesser extent, the United States Trade
Representative depend on US&FCS Japan for assistance.

Through interviews and questionnaires, we discovered that various US&FCS units in Tokyo
spend significant time performing policy functions, thereby reducing the amount of time available
for trade promotion. When we asked why the post appears to be so policy-oriented, one
explanation given was that the post has a large number of FCOs, who believe that they can better
enhance their professional reputation by performing policy functions. We were also told that
senior FSNs tend to view trade promotion responsibilities as administrative work. In fact, some

                                               -10-
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                          September 1998

FSNs viewed their role mainly as a policy advisor to top post management. In addition, we
observed that some FSNs lacked sufficient knowledge of the products and services to assist
effectively with promoting U.S. exports. We recognize the difficulty U.S. firms face when trying
to enter the Japanese market due to the existence of non-tariff trade barriers. We also recognize
(1) the linkage between trade policy and trade promotion and (2) ITA’s role in both. However,
we believe that the United States Trade Representative and the State Department are primarily
responsible for dealing with these trade policy issues. Under the Omnibus Trade and
Competitiveness Act of 1988 and the Export Enhancement Act, US&FCS’s primary role is to
carry out the Department’s major trade promotion functions. With the significant progress that
ITA and other U.S. government organizations have made in trade policy, we believe that it is now
time for US&FCS Japan to focus its energies, efforts, and resources on its primary responsibility
of trade promotion.

B.      Post Contracts Out Some of its Core Products and Focuses Too Much on
        Old-to-Market and Local-Country Firms

US&FCS contracts out the work that supports some of its core trade promotion products and
services, including the popular Gold Key Service, which matches U.S. exporters with potential
representatives and distributors. While we recognize that contracting out certain tasks frees up
resources to concentrate on other responsibilities, it seems that these resources currently are
dedicated disproportionately to policy rather than promotion. Furthermore, by contracting out
certain specific tasks, US&FCS removes itself further from performing some of the core US&FCS
activities that best meet the needs of small and medium-size firms, as well as those that are more
likely to be NTM and NTE firms.

We observed that US&FCS Japan focuses more on counseling OTM firms than NTM and NTE
firms. Our analysis of the 1997 first, second, and third quarter statistics on the number of NTM,
NTE, and OTM firms counseled by each office shows the following percentages of total firms
counseled that are OTM:

             Percentage of Counseling Services Used For OTM Firms

                                     1st QTR     2ND QTR      3RD QTR

                          Tokyo        55%            67%       57%

                          Osaka         77            82         69

                          Nagoya        28            67         63

                          Fukuoka       64            74        N/A

                          Sapporo       78            79         75


                                               -11-
U.S. Department of Commerce                                                               Final Report
Office of Inspector General                                                            September 1998

In the same period, we observed that Tokyo, Osaka, and Fukuoka facilitated over half of their
trade sessions with local country firms.

       Percentage of Counseling Services Used For Local Country Firms

                                      1st QTR     2ND QTR      3RD QTR

                          Tokyo         60%            61%       65%

                          Osaka         60             59         64

                          Fukuoka       50             70        N/A


We question whether each post should, on average, be spending more than half its time on OTM
and local country firms. OTM firms should already have the knowledge of exporting to Japan,
while NTM and NTE firms are in great need of counseling when entering the Japanese market.
Although holding trade facilitation sessions with local country firms is acceptable, we question the
value added given US&FCS’ primary mission is to assist NTM, small, and medium-size firms.

C.      Effectiveness of the U.S. Trade Center in Tokyo Is Questionable

The Tokyo Trade Center provides space for U.S. companies to use for trade and product
promotion, technical seminars, training programs, and hospitality events. Although the Center has
been useful for some smaller companies because of the low cost of its services, its overall
effectiveness is questionable. US&FCS Tokyo tends to focus its efforts on activities other than
trade events, and when it organizes such events, they are often held away from the Center. On
average, US&FCS holds 10 to 12 trade events annually at the Center, although the Center’s staff
will assist events at other sites.

In the last two years, the Trade Center director has made extensive efforts to demonstrate the
Center’s usefulness, but has reportedly received little assistance from senior management, FCOs,
and the domestic offices in improving the Center’s viability. According to staff, because the
Center is not located in the Tokyo business district, it is not a convenient location for events.
Furthermore, because of the numerous events held each year at other locations throughout Japan,
some staff members have difficulty devising events that are especially attractive.

D.      Trade Center Cost Recovery Is Based on Subsidy from the Japanese Government

The Japanese government subsidizes the Trade Center in Tokyo through the Manufactured
Imports Promotion Organization (MIPRO), an agency that promotes the import of manufactured
products. Since MIPRO provides a rent subsidy for the Trade Center’s present location,

                                                -12-
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                          September 1998

US&FCS Japan has decided not to relocate its facility to a more desirable business section of
Tokyo.

In FY 1997, MIPRO subsidized approximately 53 percent of the Trade Center’s events. Because
the Japanese government decides which trade events to subsidize, there is at least the appearance
that it influences some aspects of the trade promotion effort. Furthermore, to obtain the event
subsidies, the Trade Center Director must submit annually to MIPRO a proposed event schedule.
MIPRO then decides which events will receive the subsidies, and how much.

Our audit disclosed that the Trade Center is receiving more than $800,000 in subsidies from the
Japanese government. The annual subsidy comes in three forms:

        l       Free building space valued at $427,350.
        l       Below-market rent for 400 square meters, valued at $209,904.
        l       A financial benefit (referred to as “trade enhancement funds”) of $192,307 used by
                MIPRO to pay selected trade event expenses. Once the amount per event is
                established, US&FCS sends associated bills to MIPRO for payment.

The trade event subsidy is provided through offsets. The Trade Center identifies event-related
expenses to be paid for by MIPRO. However, these costs are not identified in trade event fiscal
plans or any Washington records. Once approved by MIPRO, these costs are passed directly to
and paid for by MIPRO. According to post management, US&FCS Japan attempts to select
events that have greater potential for MIPRO approval.

The Trade Center will run a surplus of approximately $26,000 for FY 1997 due to a subsidy of
$829,562. Without the subsidy, the Center would not have been able to recover its costs.

                              Trade Center Cost Recovery


                                           With Subsidy                  Without Subsidy
 Collections                                           $655,369                        $655,369
 Expenses                                                 410,279                        602,587
 Overhead                                                 218,360                        855,614
 Surplus                                                   26,730                      (802,832)


When we asked for documents associated with the subsidy, we were informed that US&FCS does
not have a memorandum of understanding or contract with MIPRO discussing the nature of and


                                               -13-
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                           September 1998

approval process for the subsidy expenses or collections. Thus, there is no convenient way of
tracing the source or uses of these funds.

D.      Performance Measurements Should Be Tracked More Accurately

The Government Performance and Results Act (GPRA) was enacted to improve federal
management and accountability processes and practices by requiring agencies to set strategic
goals, link them to budgets, measure performance, and report on the results. Under GPRA,
agency strategic plans will define annual goals for programs and measure the programs’
performance in meeting their goals. By March 31, 2000, each agency will be required to submit
to the President and its congressional authorization and appropriations committees an annual
report of program performance for the previous fiscal year.

US&FCS has established a procedure to track its performance in large part through “success
stories” and statistics on products and services provided. Success stories attempt to measure
export actions through the assistance and involvement of US&FCS. A success story identifies the
company seeking assistance from US&FCS, the type of success (advocacy vs. non-advocacy,
such as trade events, counseling, etc.), the size of the company, and whether the company is
NTM, NTE, or OTM. The success story also identifies the dollar value of sales the company
made, although not all companies divulge this data. While success stories are a form of
measurement, they have limitations as performance measures.

We question the value of sales as a measurement of performance because in not all cases does the
service provided by US&FCS (i.e., briefing papers, ambassador support, policy initiatives)
account for sales being made. Also there is an inequity in assigning values to successes. The
amount of time spent assisting one exporter may not contribute to a sale, while the same amount
of time assisting another exporter may contribute to a large dollar-value transaction. However,
they are all counted as success stories for performance measurement purposes.

In addition, we noted that many projects are difficult to measure. Long-term market access,
deregulation, and government procurement projects are all advantageous to the United States, but
are often not captured by the performance measurement process. Moreover, the significant
services provided to other agencies, such as the United States Trade Representative and ITA’s
Office of Japan, sometimes go unmeasured.

Furthermore, there is no centralized, consistent format for quarterly performance reporting by
US&FCS Japan’s constituent posts. A centralized, consistent reporting system is necessary to
track performance and keep management abreast of output. While some FCOs and FSNs keep
detailed logs on their daily functions, such as providing counseling or answering inquiries, other
employees do not keep track of their functions. This raises questions as to the accuracy of some
of the statistics reported.

                                               -14-
U.S. Department of Commerce                                                                Final Report
Office of Inspector General                                                             September 1998

                                               *****

Summarized ITA Response to Draft Report

In responding to our draft report, ITA said:

1. US&FCS sees trade policy and trade promotion as a continuum. US&FCS believes that both
are important components of the U.S. government’s efforts to help U.S. exporters. US&FCS
management relies on the SCO for Japan and his staff to recognize the right mix of policy and
promotion activities.

2. US&FCS agrees that more NTM clients are needed and asserts that the agency has been
implementing programs to try to increase the number of NTM firms doing business in Japan.
However, US&FCS states that many expert observers advise that difficult markets, like Japan, are
not the appropriate place for the new-to-export to begin. Moreover, US&FCS does not believe
that the draft OIG report adequately recognizes that Japan is characterized by highly protectionist
administrative barriers that require US&FCS Japan to “go to bat” for OTM clients. US&FCS
further states that the agency must be constantly vigilant to expose Japanese bureaucratic
regulators who interpret vague rules to restrict competition by U.S. industry. US&FCS concludes
this point by stating, “If US&FCS Japan is not fighting in the trenches for a ‘level playing field’ in
Japan, who will?”

3. ITA’s response pertaining to the U.S. Trade Center in Tokyo questions the figures presented
by the OIG and states that they are not accurate. In addition, US&FCS believes it is inaccurate to
state that US&FCS management has not supported the United States Trade Center. US&FCS
does agree with the OIG that the viability of the Trade Center is an issue that must be assessed.

OIG Analysis of ITA’s Response

1. While acknowledging that US&FCS Japan will have some trade policy responsibilities, our
concern has been, and continues to be, the extent to which the policy work competes and
interferes with trade promotion work. According to the US&FCS mission statement, trade
promotion is the most important aspect of what US&FCS has to offer to the U.S. business
community. This would include the core products and services: information products and market
research, counseling, trade promotion events, contact information, Gold Keys, and advocacy.
While these services are offered to the U.S. business community by US&FCS Japan (or
contractors), they could be offered in greater magnitude and quality if the post reduced its trade
policy activities.

For a clearer definition of trade promotion and the mission of US&FCS, we refer to the testimony
of the US&FCS Deputy Assistant Secretary for International Operations before the Senate

                                                -15-
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                           September 1998

Foreign Relations Committee in the Fall of 1997. She testified that the “principal mission” of
US&FCS is to “assist U.S. exporters,” and she further testified, “Our most fundamental
commitment to the business community is export counseling.” At no time did the Deputy
Assistant Secretary discuss trade policy development as a key or significant part of the US&FCS
mission or one of its objectives.

2. The OIG is aware of the barriers to U.S. firms attempting to conduct business in Japan.
However, we believe that U.S. government efforts to reduce these barriers is the primary
responsibility of the economic section at the State Department and the U.S. Trade Representative.
While US&FCS must contribute to these efforts, its primary responsibility should be on trade
promotion activities. The OIG believes that too many US&FCS Japan resources are dedicated to
trade policy efforts.

3. The OIG evaluation of the Trade Center focused solely on the events taking place at the Trade
Center. Therefore, the figures presented in the draft report are accurate. In assessing the long-
term viability of the United States Trade Center, US&FCS should not consider events that take
place outside the physical confines of the Trade Center. US&FCS will still be able to participate,
coordinate, and co-sponsor such events without the existence of the Center.

Recommendations

We recommend that the Assistant Secretary and Director General of US&FCS:

1.      Redirect US&FCS Japan’s attention toward trade promotion activities. In some cases, it
        will be necessary to provide trade promotion training for personnel. This would also
        include encouraging FSNs to constantly interact with the American business community
        and market the products and services offered by US&FCS.

2.      Focus more on assisting NTM and NTE firms rather than OTM and local country firms.

3.      Assess whether the Trade Center subsidy from the Japanese government:

                a. Influences the trade promotion effort and
                b. Should be continued.

        If it is continued, documents should be maintained to track it.

4.      Assess the cost-effectiveness of operating the Trade Center. If management decides to
        continue operating the Center, it should be utilized more productively. If management
        determines it is not cost effective to operate the facility, it should be closed and the
        resources reallocated.

                                                -16-
U.S. Department of Commerce                                                           Final Report
Office of Inspector General                                                        September 1998

5.      Develop a better system to track US&FCS’s performance against its goals and objectives
        as outlined in the Strategic Commercial Plan in accordance with Government Performance
        Results Act. Specifically, such services as counseling, advocacy, information gathering,
        and assisting other government agencies should be accounted for.




                                              -17-
U.S. Department of Commerce                                                                Final Report
Office of Inspector General                                                             September 1998

III.    INTERNAL CONTROL ENVIRONMENT

After reviewing the administrative and financial operations at post and conducting interviews with
US&FCS and embassy staff, we concluded that US&FCS Japan’s internal controls should be
improved. Specifically, we observed significant redundancies within the administrative units and a
lack of coordinated oversight by management. Additionally, there is not an effective internal
control structure to separate critical administrative functions. Account balances were also not
fully reconcilable between the ITA, State Department, and Treasury Department records.
Moreover, in a matter affecting reporting requirements under the Chief Financial Officers Act,
US&FCS Japan had accumulated over $2.3 million in unfunded personnel benefit liability for its
employees.

A.      Post Administrative Structure Needs Realigning

US&FCS Tokyo management has developed two administrative units, resulting in significant
redundancies. The administrative units consist of FSNs and several officers doing similar work
and transactions, none of which is coordinated or managed by the administrative officer.

US&FCS Tokyo has redundant administrative and financial structures in support of the two major
sources of funds at post (Operating and Administrative and International Cooperative
Administrative Support Services). The functional segregation between O&A programs and trade
event activity has created two duplicative administrative units (see Appendix II, Present
Alignment). This duplication has resulted in the inefficient use of personnel resources, and overly
complicates the SCO’s management of administrative and financial operations. Moreover, the
post’s administrative officer does not have responsibility over the full spectrum of administrative
functions. Three FCOs are involved in administrative and financial matters (administrative officer,
Trade Center director, and American secretary). Among these officers, there appears to be little
coordination of financial and administrative matters.

US&FCS Tokyo needs to realign its administrative structure to more effectively manage its
responsibilities. Specifically, it needs to streamline the human resources dedicated to the
administrative and financial process. Establishing a single administrative section will properly
align all administrative and financial personnel under the administrative officer (see Appendix II,
Proposed Realignment). Realignment would consolidate work efforts and house all US&FCS
Japan administrative and financial operations in one area, thus leveraging the available resources
to effectively handle the post’s increasing administrative requirements.




                                                -18-
U.S. Department of Commerce                                                                Final Report
Office of Inspector General                                                             September 1998

US&FCS Japan needs to separate critical administrative functions to ensure proper internal
controls are established

Trade Event Funds Management: The US&FCS Tokyo Trade Center has a budget
analyst/imprest fund cashier who is the sole controller of funds, including collections,
expenditures, and reconciliations. Most importantly, this person controls all elements of the
$10,000 imprest fund.

The Trade Center also has a receiving clerk, but since the analyst/cashier manages the electronic
fund transfers, the cashier is performing the core duties of the receiving clerk and there is no
separation of duties with the Center’s analyst/cashier. The weakness is compounded by the
absence of other tracking mechanisms (such as logbooks) and reconciliations between the two
employees.

O&A Funds Management: Similarly, Tokyo’s O&A division has a budget specialist/petty cashier
who controls all financial tracking systems for collections, procurements, disbursements, and
reconciliations. These functions are managed by two supervisors (the administrative officer and
the American secretary) who do not coordinate their separate functions. For example, both
supervisors have oversight responsibilities for petty cash. The administrative officer controls the
signing authority and the secretary controls the reconciliation of funds, but neither formally
communicates issues or concerns. These functions should be brought together, or a more formal
communication process should be established.

Although reconciliations are supposed to be conducted regularly, unannounced cash
reconciliations are rarely performed. For example, there were none between April 1996 and June
1997. As signing official, the administrative officer needs this important information to ensure
proper administrative procedures are followed.

ICASS management needs strengthening

ICASS, the international cooperative administrative support system, is proposed to replace the
existing administrative and financial system. ICASS (1) is a customer-driven, voluntary
interagency system for managing and funding administrative support services abroad; (2) gives
posts the authority to determine how services are delivered, at what cost, and by whom; (3) has
customer service standards established by the post, with the service provider formally accountable
to the customer; and (4) incorporates a full-cost recovery system through a no-year working
capital fund.

Each post has both a council and working group to address and resolve financial and
administrative issues. Each agency assigns its senior officer to the council and a junior officer or
FSN to the working group. During our audit, we observed the following:

                                                -19-
U.S. Department of Commerce                                                              Final Report
Office of Inspector General                                                           September 1998

US&FCS: US&FCS Tokyo is represented on both the ICAAS council and the working group.
Moreover, US&FCS Japan has reduced its level of representation in ICASS by removing the SCO
from the ICASS council. Originally, the SCO and the administrative officer were the key
representatives on ICASS. After a new SCO and a new administrative officer came on board, the
administrative officer was reassigned to the working group, and the American secretary to the
council. We believe that these roles should be reversed and would be more effective if the senior
officer in charge of post administrative issues were assigned to the ICASS council and the junior
officer assigned to the working group. Because the ICASS council consists of heads-of-agency
representatives from each involved agency, US&FCS Japan should have a high-level
representative who can work effectively with his or her colleagues in the Embassy.

State Department: As the old Foreign Affairs Administrative Support System evolved into the
new ICASS system, State Department FSNs were shifted to all foreign service agencies who
participate in ICASS. Unfortunately, the State Department did not shift funding to cover the
liability associated with the years of service that these employees worked for the State
Department. Therefore, this liability is expected to be funded by other foreign service agencies
and could result in significant costs.

Furthermore, the personnel officer noted that State is committed to reducing its overhead cost by
encouraging retirement through a downgrading of its FSN positions. At the time of our review,
the Embassy administrative section did not have a specific strategy to implement its downgrading
plan. Therefore, the potential financial cost to US&FCS Japan was not identified. However, any
cost associated with a voluntary or involuntary separation would be shared across all ICASS
agencies. In Japan, US&FCS pays approximately 9 percent of total ICASS costs and would most
likely incur a similar share of separation costs. Based on post records, total ICASS personnel
costs were estimated at $18.5 million. The estimated unfunded personnel liability is
approximately $11.1 million, of which more than $1 million could be directly attributed to
US&FCS Japan.

LAN management should be improved

There is no clear management structure to effectively address local area network (LAN)
operations because of the division of responsibilities between the Embassy and the Trade Center.
US&FCS Japan has created a redundant structure by designating two officers and two FSNs to
separately manage overall LAN operations in Japan and LAN operations for the Trade Center.
These two divisions do not coordinate or assist each other on LAN issues. This results in a
significant difference in the quality of service and amount of attention to LAN matters since the
qualified LAN specialist does not work with the Trade Center. Specifically, with the Center
located outside the Embassy, its LAN requirements are often not met or addressed by the
US&FCS administrative officer. The Center operates on a less than adequate system that needs
to be upgraded. The Center’s LAN system is sometimes inoperable, occasionally for long

                                               -20-
U.S. Department of Commerce                                                            Final Report
Office of Inspector General                                                         September 1998

periods, a problem that occurred while we were in Tokyo. This problem was compounded by the
lack of responsiveness to a request for headquarters assistance.

Implementation of CAMS may have a significant negative impact on commercial work at post

The Department is developing a single administrative and financial management system known as
the Commerce Administrative Management System (CAMS). CAMS consists of three
components: (1) the core financial system (CFS), (2) a bankcard module, and (3) a small
purchases procurement module. CFS, the primary focus of CAMS, is intended to streamline
financial and administrative procedures and improve timeliness. At the time of our fieldwork,
ITA’s projected date for deploying CFS overseas was December 1998, which has since been
pushed back to October 1999. We believe the current deployment strategy has not been
thoroughly reviewed to address the unique administrative and resource environment of overseas
posts. Furthermore, CFS implementation would require US&FCS overseas staff to become
administrative managers as well as commercial officers if the deployment plan proceeds as
outlined.

The overseas internal control environment would be weakened under ITA’s current plans.
Commercial officers and FSNs have not been trained in critical functions, such as financial
management (which includes accounting and disbursing). Moreover, ITA has not conducted a
thorough assessment of the impact CAMS may have on ICASS services at post. ITA has also not
addressed matters surrounding the disbursement or certification of funds and how CAMS may
change State’s role in providing services or internal controls.

B.      Management Controls Need to Be Strengthened

Upon reviewing management controls over its administrative and financial responsibilities, we
determined that the post did not maintain adequate management controls to protect against waste,
fraud, or abuse. During our audit, we identified several problems, as detailed in the findings
section below.

Account balances differ

Our review of official records disclosed unreconciled account balances between State, Treasury,
ITA, and US&FCS Washington. During our review of account balances, we identified the
following:

        l       A more than $61,000 difference in expenditures between State Department and
                ITA official records for FY 1997 Operating and Administrative accounts.
        l       A $144,152 difference in collection balances between State and Treasury records
                and a $127,711 difference between State and ITA records.

                                               -21-
U.S. Department of Commerce                                                                             Final Report
Office of Inspector General                                                                          September 1998

        l       More than $191,000 in prior-year unliquidated obligations.
        l       Differences totaling $1.7 million between FY 1996 State and ITA accounting data
                for expenditures.

In examining the $1.7 million difference, we compared State and ITA FY 1996 report balances,
which produced the following breakdown by account:


                              FY 96 Reconciliation of State and ITA Accounting Data

                       Category             State                ITA              Difference

                 O&A                         $4,765,410          $6,233,105           $1,467,695

                 Overhead                       173,595             432,250             258,655

                 Other                          150,112             150,525                    413
                 Reimbursable


The comparison of collection balances in the State Department report to the ITA and Treasury
reports for the period ending July 31, 1997, revealed a $144,152 difference with the Treasury
balance and a $127,711 difference with the ITA balance (see graph below).




In comparing the ITA accounting report to US&FCS’s Trade Event Management System’s
(TEMS) collection report, we found that in FY 1997, the Trade Center, ITA accounting, and
TEMS reported trade event collection balances that differed significantly. The difference with
ITA amounted to $160,747 for the reporting period ending July 31, 1997. We were unable to
identify the reasons for the differences because ITA does not track collections on an individual or
project code basis. We believe that the difference may have resulted from timing differences or
from funds being improperly credited to an agency other than ITA.

                                                      -22-
U.S. Department of Commerce                                                                                  Final Report
Office of Inspector General                                                                               September 1998

Also, the difference may have resulted from the way in which ITA and the Trade Center account
for collections. ITA accounts for collections in the fiscal year that the collection is received,
whereas the Trade Center reports total collections by trade event. The difference between TEMS
and US&FCS Japan amounted to $28,667 for the reporting period ending September 2, 1997.
We believe that this difference occurred because TEMS had numerous posting errors, such as
collection amounts posted to the wrong trade event accounts (see diagram below).




        Note: Available accounting reports were not consistent in reporting periods; thus, US&FCS Japan
        data was compared separately against ITA and TEMS.


Prior year unliquidated obligations and unobligated authorizations exist

The State Department’s Financial Management Center (FMC) in Tokyo and US&FCS Japan have
failed to determine if prior year unliquidated obligations and funds available (unobligated) are still
valid.

Prior year obligated funds totaling $191,425 have not been disbursed for accounts dating back to
FY 1994 (see breakdown in table below).




                                                         -23-
U.S. Department of Commerce                                                                            Final Report
Office of Inspector General                                                                         September 1998




                                         Prior Year Unliquidated Obligations

                              Category          FY 1994          FY 1995            FY 1996

                          O&A                        $473              $10,705          $1,320

                          Trust Fund                      0               569               7,347

                          Kerry Funds                     0            171,011                 0


Prior year funds totaling $167,182 have not been obligated, nor have these funds been returned to
Washington (see breakdown in table below).

                                       Prior Year Unobligated Authorizations

                                   Category           FY 1995               FY 1996

                                O&A                           $2,661             $100,628

                                Trust Funds                    2,034               53,034

                                Kerry Funds                    8,412                   0


US&FCS Japan has not reconciled or managed the account balances at post. The official State
Department monthly accounting reports clearly identify these prior year funds. These funds could
be put to better use either in Japan or by US&FCS Washington. US&FCS Japan should
determine if these balances can be returned to the Treasury and reconcile the accounts properly.

FY 1995 Kerry funds are being drawn down improperly

In 1995, Senator John Kerry of Massachusetts sponsored a one-time appropriation of nearly
$500,000 to ITA’s Market Access and Compliance division, known at that time as International
Economic Policy. These funds were appropriated to create an export center in Tokyo to facilitate
American business access to the Japanese market and to increase U.S. exports to Japan. In FY
1995, ITA’s Office of Japan authorized the full amount of “Kerry funds” to post in support of the
program. At the instruction of the Office of Japan and with ITA support, US&FCS Tokyo
obligated the full amount of the single year funds, thus avoiding losing the funds at the end of the
year. To date, US&FCS Tokyo maintains approximately $171,000 of Kerry funds still on the
books under the FY 1995 account. The account is currently being drawn down on an as-needed
basis to fund personal service contracts (PSCs), travel, and supplies.

We observed that US&FCS Japan is funding current year PSCs from the FY 1995 account. The
US&FCS is authorized PSC authority through its appropriation language, which allows for only

                                                          -24-
U.S. Department of Commerce                                                               Final Report
Office of Inspector General                                                            September 1998

one-year authority. Furthermore, ITA’s policy is that all contract positions are to be funded out
of current year accounts, not multiple or prior year accounts. Using Kerry Funds to continue
paying for PSCs appears to violate this policy. As the Department’s expert on legal and
legislative matters, the Office of General Counsel should be consulted for a determination of the
proper use and disposition of these funds.

Collection process is inadequate

We reviewed the process by which US&FCS Japan collects funds. We found no apparent misuse
of collections; however, the State Department collection balance differed from ITA and Treasury
 reports by $127,711 and $144,152, respectively. In the absence of adequate reconciliation, we
are unable to determine the causes of the discrepancy. Furthermore, because the post has
consolidated incompatible functions under a few employees, it cannot ensure that collections are
properly handled. Additionally, key reconciliation systems and processes, such as collection
logbooks and reconciliations of account balances between ITA, State, and Treasury reports, do
not exist. As shown earlier, there were differences in the final balances of official accounting
records.

Our fieldwork indicated that improvements are needed in US&FCS Japan’s financial management
practices to properly account for collections, reconciliations, and cash management. The current
collection process at post does not ensure accountability of funds. Most collections for trade
events in Japan are executed through electronic fund transfers. Such collections are received,
verified, and reconciled through computer dial-up software provided by the Bank of America.
Because this software does not track the deposits by agency, all transfers for the embassy are
executed within one account. This requires daily reviews and reconciliations by the Trade Center
budget analyst/cashier. Collections are not coded to the agency until they are processed with a
deposit form, Official Form (OF)-158, Deposit. As a result, some deposits have not been
identified because the electronic fund transfer was overlooked during a daily review of the
account. These mistakes were eventually corrected.

Cash collections are generally received by trade specialists and are passed on to the receiving
clerk or cashier. There is no record of receipts issued for cash collections, no collection logbook,
no reconciliation of cash deposit reports, and no officially designated money handlers.

ABIC operations need to account for and secure collections

US&FCS Japan has established the American Business Information Center (ABIC) as an
information center for market research and as the central coordinating office for US&FCS market
research products sold to post clients. Our fieldwork indicates that ABIC has not adequately
reconciled collections and deposits. ABIC maintains a tracking spreadsheet for collections and
receipts issued, but not OF-158 numbers. The spreadsheet does not track the official numbers of

                                                -25-
U.S. Department of Commerce                                                               Final Report
Office of Inspector General                                                            September 1998

the receipt sub-voucher. However, when the OF-158 is generated, it records the associated
official receipt numbers. Information needed for reconciliations is available, but ABIC has not
organized its accounting system to use it effectively. In the absence of a comprehensive tracking
system, ABIC is unable to reconcile the collections and receipts issued to the OF-158s or
Regional Administrative Management Center (RAMC) reports. As the regional financial
management center for all embassy operations, RAMC manages the financial system that tracks
all transactions from the embassies within its region.

Additionally, ABIC does not adequately account for collections maintained before deposit.
Because of the low number of collections, amounts are held for long periods. ABIC does not
have a cash lockbox for collections, so they are secured by the petty cashier. However, ABIC
does not track how much cash has been collected and turned over to the cashier. Each staff
member of ABIC is allowed to receive cash and issue receipts because US&FCS Japan has not
identified a specific cash handler for ABIC collections. Although there is a supervisor to
coordinate the collection process, it is a significant internal control weakness to have multiple
employees responsible for the collection process. We observed a similar weakness in Osaka.

US&FCS Washington does not adequately manage the NOAA account in Japan

In 1982, NOAA and US&FCS signed a reimbursable agreement to hire an FSN to handle
National Marine Fisheries Service issues in Japan. NOAA reimburses US&FCS for the cost of
the FSN, travel, and procurements. In addition, NOAA pays a percentage of the costs associated
with US&FCS administrative support personnel and the International Cooperative Administration
Support Service (ICASS), a new administrative support program and cost distribution method.
However, the post does not get reimbursed for some of NOAA’s costs.

Each year, US&FCS Tokyo loses money authorized to post due to its inability to obligate funds
for NOAA’s costs associated with support personnel and ICAAS. At the end of each year, the
State Department remits funds remaining at the post back to the Treasury Department. The
administrative support costs are already funded through post O&A funds, and ICAAS funds are
maintained and paid in Washington. Therefore, US&FCS Tokyo is unable to obligate
authorizations sent to post for these line items. Last year, US&FCS Japan lost approximately
$30,000 authorized for administrative support and NOAA-related ICASS charges. These funds
should not be authorized to post.

Furthermore, there is no financial oversight of these funds from either Washington or Japan.
NOAA has never received from US&FCS Washington (1) any unused funds or (2) a report that
accounts for how the funds were expended or if they were used appropriately.

Our fieldwork indicated that US&FCS Japan and US&FCS Washington are not communicating
effectively on these matters. These funds can be easily tracked and reconciled. Authorizations

                                                -26-
U.S. Department of Commerce                                                             Final Report
Office of Inspector General                                                          September 1998

for support personnel and ICASS can easily be sent back to Washington to be applied against the
account (the East Asia Pacific regional budget for US&FCS) where the funds originate.

US&FCS needs to fund its unfunded personnel liability

The Federal Managers’ Financial Integrity Act and the CFO Act require that US&FCS
Washington maintain an account on the growing personnel liabilities for payment of benefits upon
separation, whether voluntary or involuntary, for FSNs eligible for severance.

We met with the embassy personnel division to assess the agency’s unfunded liability. As of the
end of FY 1997, the total unfunded liability for US&FCS Japan is $2.3 million. Of this, over
$400,000 will be used in FY 1998 for the expected retirements of highly paid FSNs. During our
review we were advised by post management that these funds were not included in the FY 1998
budget request for the post.

                                               *****

Summarized ITA Response to Draft Report

In responding to our draft report, ITA said:

1. ITA has informed the OIG that the audit team reviewed US&FCS Japan’s administrative
structure in a time of transition. It is presently being unified under the direction of the
Commercial Counselor and American Secretary. Nonetheless, ITA does not believe that it has
redundant accounting processes and believes it is imperative that the two funding accounts remain
separate.

2. According to US&FCS the OIG team has made inaccurate assumptions and did not ask to
review US&FCS Tokyo’s documentation of the Kerry Fund and its use. US&FCS states that if
the OIG team had seen the documents, they would have found that every disbursement from
Kerry Funds is fully documented and in accordance with instructions from Washington.
Moreover, the IG report failed to note that Kerry funds enabled US&FCS to expand its reporting
on the Kobe Earthquake, open the Virtual Trade Center, create a popular home page on
U.S./Japan trade and start new programs in housing, government procurement, safety and security
and oil spill response — all of which, according to ITA, meet the Senator’s objective of greater
visibility and outreach to the U.S. business community.

3. With regard to the unfunded personnel liability for ICASS, according to ITA, US&FCS
indicates that it has discussed this issue at post, and most recently with the ICASS Council.
However, the issue ultimately must be decided in Washington and is not resolvable at post. It is
being addressed by ITA’s Office of Financial Management.




                                               -27-
U.S. Department of Commerce                                                                Final Report
Office of Inspector General                                                             September 1998

OIG Analysis of ITA’s Response

1. The OIG agrees that these two referenced accounts need to remain separate. In fact, we
believe that all accounts need to be tracked and managed individually. We also agree that the
processes for managing O&A and Trust Funds are unique.

However, the OIG finding is directed toward the fact that US&FCS Japan has multiple staff doing
similar work and does not separate critical financial duties (collection, expenditure, reconciliation,
petty cash/cashiering, and ICASS management). It is often appropriate for one employee to
manage two or more accounts. That is a management issue that can be resolved by managing
information databases and tracking mechanisms. Our proposed organizational structure
adequately addresses the need to separate both accounts and key financial functions.

2. The OIG agrees that there have been valuable results from utilizing the Kerry Funds for the
past several fiscal years. However, our audit finding is not directed to the individual expenses of
these funds compared to Senator Kerry’s objectives, rather to the management of the account.

The OIG interviewed all officials at post with responsibility for managing Kerry Fund activities
and reviewed pertinent documents. The funds were obligated in FY 1995 to avoid a withdrawal
of authorization at the end of the fiscal year. US&FCS Japan obligated the full amount of these
funds against no contracts, agreements, or known costs.

The report finding did not question the expenditures as they related to Senator Kerry’s intent.
Instead, the finding questions the management practice of spending prior year funding against
current year expenses. The report does specifically question the personal services contract that
was established using these prior year funds. According to ITA administration, this violates
management guidance provided to US&FCS.

3. Officials at post who are knowledgeable about the unfunded liability issue told the OIG that
they had not raised it with the State Department. We agree that this is not solely a US&FCS
Japan matter. However, ICASS is a post-driven program, and US&FCS Japan has the ability to
determine its potential ICASS costs and should do so expeditiously. We are encouraged that
US&FCS and ITA are addressing this matter.

Recommendations

We recommend that the Assistant Secretary and Director General of US&FCS:

1.      Ensure that the Commerce Administrative Management System will address the
        administrative and resource environment of the overseas posts prior to its deployment. In
        addition, assess the impact the system may have on ICASS services at posts and State’s
        role in providing services or internal controls.


                                                -28-
U.S. Department of Commerce                                                                Final Report
Office of Inspector General                                                             September 1998

2.      Develop internal control structures that provide proper, accountable cash management and
        account reconciliation processes at US&FCS Japan; conduct thorough reconciliations of
        present and prior year expenditure and receivable accounts to ensure that post and State
        Department reports reconcile; and resolve unliquidated and unobligated prior year
        balances.

3.      Continue working with ITA and the State Department to address the requirements of the
        CFO Act in regard to overseas financial assets and liabilities. Accurately report the status
        of total unfunded personnel liability to ITA and budget for expected FY 1998 separations.

4.      Consult with the Office of General Counsel to determine whether FY 1995 Kerry funds
        are being properly used and whether they need to be remitted to the Treasury.

5.      Realign US&FCS Japan’s administrative structure to effectively manage responsibilities at
        post. This would include (a) streamlining the human resources dedicated to the
        administrative and financial process, (b) separating critical administrative and financial
        functions at post, and (c) assigning administrative officer supervision over all
        administrative and financial transactions.

6.      Assess representation assignments to the ICASS council and working group to ensure that
        assignments coincide with management responsibilities at post.

7.      Ensure proper oversight for post’s imprest fund and petty cash authorization.

8.      Establish better internal controls and reconciliation systems in the collection process to
        ensure that collections are identified, recorded, and reconciled.

9.      Reconcile the NOAA reimbursable account annually with the post and ITA, and provide a
        status report to NOAA. Ensure that NOAA-associated ICASS costs are being
        reimbursed to the US&FCS headquarters account and not authorized to post.




                                                -29-
U.S. Department of Commerce                                                                                                                                             Final Report
Office of Inspector General                                                                                                                                          September 1998


                                                                         APPENDIX I
                                               US&FCS Japan Organization Chart


                                                                                      Senior
                                                                                    Commercial                           American
                                                                                                                         Secretary
                                                                                      Officer
             Consul                 State Department
             General                Principal Officer
             Sapporo                     Fuknoka

         Trade Promotion            Trade Promotion                               Deputy Senior
            Specialist                 Specialist                               Commercial Officer
             Sapporo                    Fuknoka



                                                                                                                                                    Administrative
            Transportation and                          Government                                        Medical/                                  Support/Market
             Industrial Machinery                       Procurement                                     Compliance/IPR                               Information
                 Unit Chief                              Unit Chief                                       Unit Chief                                  Unit Chief



                 Industry                                 Industry                                           Industry                       ABIC                     Budget
                Specialist                               Specialist                                         Specialist                    Supervisor                 Analyst



            Commercial Clerk                              Industry                                           Industry                   ABIC Specialist            LAN
                PSC                                      Specialist                                         Specialist                      PSC                 Administrator



                                                           Clerk                                           Commercial                   ABIC Specialist
                                                           PSC                                              Assistant                       PSC




                                          Information                                          Consumer Goods,
    U.S. Trade Center                                              Major Projects/
                                          Technology                                           Services, Tourism                      PCO                            PCO
       Promotion                                                   Basic Materials
                                           Unit Chief                                             & Fisheries                        Nagoya                          Osaka
       Unit Chief                                                    Unit Chief
                                                                                                  Unit Chief



     Commercial                             BXA                         Industry                      Industry                    Industry                      Commercial
    Outreach Officer                      Unit Chief                   Specialist                    Specialist                  Specialist                       Officer


                                                                                                                                                              General Program
     Budget Analyst/                        Industry                    Industry                      Industry                  Commercial
                                                                                                                                                              Support and Petty
        Cashier                            Specialist                  Specialist                    Specialist                  Assistant
                                                                                                                                                                  Cashier



    Trade Promotion                         Industry                    Industry                      Industry                                                    Industry
       Assistant                           Specialist                  Specialist                    Specialist                                                  Specialist



       Operations                           Industry                  Commercial                      Industry                                                    Industry
       Assistant                           Specialist                  Assistant                     Specialist                                                  Specialist



     Administrative                      Commercial                                              Commercial                                                       Industry
       Assistant                          Assistant                                               Assistant                                                      Specialist



    Trade Promotion                                                                                                                                               Industry
       Assistant                                                                                                                                                 Specialist



    Trade Promotion                                                                                                                                            ABIC, LAN and
       Assistant                                                                                                                                               Support Analyst


                                                                                                                                                                  Industry
    Commercial Clerk
                                                                                                                                                                 Specialist
        PSC
                                                                                                                                                                 Kerry PSC




                                                                                        -30-
U.S. Department of Commerce                                        Final Report
Office of Inspector General                                     September 1998

                                      APPENDIX II
                              Administrative Structural Chart

                        PRESENT ALIGNMENT




                       PROPOSED REALIGNMENT




                                           -31-
U.S. Department of Commerce                                                      Final Report
Office of Inspector General                                                   September 1998

                                    APPENDIX III

                                       Acronyms

ABIC               American Business Information Center
CAMS               Commerce Administrative Management System
CFO Act            Chief Financial Officers Act of 1990
CFS                Core Financial System
FCO                foreign commercial officer
FMC                Financial Management Center
FSN                foreign service national
FTE                full-time equivalent
GDP                Gross Domestic Product
GNP                Gross National Product
GOJ                Government of Japan
GPRA               Government Performance and Results Act of 1993
ICASS              International Cooperative Administrative Support Service
ITA                International Trade Administration
LAN                local area network
MIPRO              Manufactured Imports Promotion Organization
NOAA National Oceanic and Atomospheric Administration
NTE                new to export
NTM                new to market
O&A                Operating and Administrative
OIG                Office of Inspector General
OTM                old to market
PSC                personal services contract
RAMCRegional Administrative Management Center
SCO                senior commercial officer
SCP                Strategic Commercial Plan
TEMS               Trade Event Management System
US&FCS             U.S. and Foreign Commercial Service
USTR               United States Trade Representative
USTTA              Unites States Travel and Tourism Administration




                                           -32-
